APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
EDWARD ANDERSON;
COLEEN WORTHINGTON;
JANET GORAL,

No. 19-17520

Plaintiffs-Appellants,
v.
EDWARD D. JONES & CO.,
L.P.; THE JONES FINANCIAL
COMPANIES, LLLP; EDJ
HOLDING COMPANY, INC.;
JAMES D. WEDDLE; VINCENT
J. FERRARI,

D.C. No.
2:18-cv-00714JAM-AC
OPINION

Defendants-Appellees.
Appeal from the United States District Court
for the Eastern District of California
John A. Mendez, District Judge, Presiding
Argued and Submitted December 9, 2020
San Francisco, California
Filed March 4, 2021
Before: DANNY J. BOGGS,* MILAN D. SMITH, JR.,
and MARK J. BENNETT, Circuit Judges.
Opinion by Judge Milan D. Smith, Jr.

*

The Honorable Danny J. Boggs, United States Circuit Judge
for the U.S. Court of Appeals for the Sixth Circuit, sitting by
designation.

2a
SUMMARY**
Securities Law
The panel reversed the district court’s dismissal of
a class action brought by investors with a financial
services firm, alleging breach of fiduciary duties
under Missouri and California law when the investors
moved their assets from commission-based to feebased accounts.
The district court concluded that it lacked subject
matter jurisdiction over the state law claims because
the Securities Litigation Uniform Standards Act
(SLUSA) prevented plaintiffs from bringing their
claims as a class action consisting of fifty or more
persons. The district court also dismissed plaintiffs’
securities fraud claim under § 10(b) of the Securities
Exchange Act of 1934. Plaintiffs appealed dismissal
of their state law claims only.
Reversing, the panel held that SLUSA did not bar
plaintiffs’ state law fiduciary duty claims because the
alleged misrepresentation or omission that formed the
basis for the claims was not “in connection with the
purchase or sale of a covered security.” Following
Chadbourne & Parks LLP v. Troice, 571 U.S. 377
(2014), the panel held that the phrase “in connection
with” requires a showing that the misrepresentation or
omission was material to a decision to buy or sell a
security. The panel concluded that defendants’ alleged
failure to conduct a suitability analysis before inviting
plaintiffs to switch to fee-based accounts was not

**

This summary constitutes no part of the opinion of the
court. It has been prepared by court staff for the convenience of
the reader.

3a
material because plaintiffs did not allege that they
would have purchased or sold different covered
securities had defendants conducted such an analysis.
_________________________________________________
COUNSEL
Michael Anthony Brown (argued), Spertus Landes &
Umhofer LLP, Los Angeles, California; John R.
Garner, Garner & Associates, Willows, California;
Michael D. Murphy, Franklin D. Azar & Associates
P.C., Aurora, Colorado; for Plaintiffs-Appellants.
Mark A. Perry (argued), Gibson Dunn & Crutcher
LLP, Washington, D.C.; Alexander K. Mircheff and
Meryl L. Young, Gibson Dunn & Crutcher LLP, Los
Angeles, California; Samuel A. Keesal Jr., Keesal
Young & Logan, Long Beach, California; Julie L.
Taylor, Keesal Young & Logan, San Francisco,
California; for Defendants-Appellees.
_________________________________________________

4a
OPINION
M. SMITH, Circuit Judge:
Plaintiff-Appellant Edward Anderson and others
(collectively, Plaintiffs) are the Lead Plaintiffs in a
class action brought against Defendant-Appellee
Edward D. Jones & Co., L.P., and other associated
entities and individuals (collectively, Edward Jones).
Plaintiffs alleged that Edward Jones breached its
fiduciary duties owed to Plaintiffs under Missouri and
California law. The district court concluded that it did
not have subject matter jurisdiction because the
Securities Litigation Uniform Standards Act (SLUSA)
prevents Plaintiffs from bringing their claims as a
class action consisting of fifty or more persons. See 15
U.S.C. § 78bb(f)(1), (f)(5)(B).
Because
Edward
Jones’s
alleged
misrepresentation or omission that forms the basis for
Plaintiffs’ fiduciary duty claims is not “in connection
with the purchase or sale of a covered security,” Id.
§ 78bb(f)(1)(A), we reverse the decision of the district
court and remand for further proceedings consistent
with this opinion.
I. FACTUAL AND PROCEDURAL
BACKGROUND
A. Plaintiffs’ Investment Relationship with
Edward Jones
Plaintiffs were investors with Edward Jones, a
financial services firm headquartered in St. Louis,
Missouri.1 According to Plaintiffs, they are “buy-and1

The background that we lay out in this opinion is largely
drawn from Plaintiffs’ Second Amended Complaint. Because the
district court disposed of this case at the motion to dismiss stage

5a
hold clients,” which means that they “conduct[] little
to no trading each year.”
Plaintiffs previously
invested with Edward Jones through commissionbased accounts.
Under this investment model,
“Edward Jones provided its clients free financial
advice, only charging them on a per trade basis.”
Plaintiffs assert that this “model particularly
benefitted middle-income investors in small
communities who engaged in little to no trading,” like
themselves.
In 2008, Edward Jones introduced a fee-based
model of investing. In a fee-based account, Edward
Jones “charged a flat annual asset management fee.”
“The standard fee was 1.35% to 1.50% of a client’s
assets under management,” though it could be as high
as 2%, in addition to administrative fees. Clients
investing in a fee-based account would pay an annual
fee “regardless of the transactions” that Edward Jones
conducted on behalf of those clients.
Plaintiffs moved their assets from commissionbased to fee-based accounts. During the transition,
Edward Jones purportedly gave written disclosures to
Plaintiffs, including a brochure entitled “Making Good
Choices.” Clients also signed a form in which they
“acknowledge[d] that [the client] has received and
read the Brochure, which describes the [fee-based
program] in greater detail.”
Clients also
acknowledged that they “made [their] own decision[s]
to invest in the” fee-based account. Additionally,
clients filled out a form with their investment
objectives.

of the litigation, we must accept Plaintiffs’ well-pleaded
allegations as true. Northstar Fin. Advisors, Inc. v. Schwab
Invs., 904 F.3d 821, 828 (9th Cir. 2018).

6a
B. Plaintiffs’ Suit Against Edward Jones
Plaintiffs filed their Second Amended Complaint
on July 29, 2019, which forms the basis for this
appeal. Plaintiffs brought a number of counts against
Edward Jones, including allegations that Edward
Jones violated its state law fiduciary duties and
federal securities law.
Most important to Plaintiffs’ fiduciary duty
allegations is that Edward Jones allegedly failed to
conduct a “suitability analysis” before inviting
Plaintiffs to switch to fee-based accounts. Plaintiffs
argue that under Financial Industry Regulatory
Authority (FINRA) Rule 2111, “broker-dealers must
ensure that fee-based accounts are only recommended
to those clients for whom they are suitable; as such
accounts tend to be more expensive for clients who
engage in little to no trading activity.” Plaintiffs
concede that FINRA Rule 2111 “may not [create] a
private right of action,” but argue that a FINRA rule
“may be used as evidence of industry standards and
practices” when pursuing a breach of fiduciary duty
claim.
Additionally, Plaintiffs contend that Edward
Jones “improperly incentivize[d] its [financial
advisors] to violate their fiduciary duties and rack up
asset-based fee revenue for” Edward Jones and
“terminated, gave smaller raises and bonuses to,
and/or failed to promote [financial advisors] who
disagreed with [Edward Jones’s] strategy.” Plaintiffs
allege that Edward Jones pressured financial advisors
to switch clients to fee-based accounts through
regional meetings, training sessions, and field office
visits.

7a
Plaintiffs claim that this lack of a suitability
analysis and the corresponding push to move clients
to fee-based accounts is a breach of Edward Jones’s
fiduciary duties under Missouri and California law.
According to Plaintiffs, they “should not have been
transferred from commission-based accounts into feebased accounts and, thus, should not have been
charged annual asset-based fees at all, only
commissions.” They seek damages
in the amount of the fees they paid Edward
Jones after having their assets improperly
transferred from commission-based accounts
into unsuitable fee-based accounts, less the
commissions they would have paid if the
assets ha[d] properly remained in the
commission-based
accounts,
plus
the
increase in value the assets would have
achieved over time had Edward Jones not
improperly deducted the substantial fees
from the accounts.
Plaintiffs do not allege that they would have made or
not made any particular trades had Edward Jones
conducted a suitability analysis.
Plaintiffs also alleged that Edward Jones violated
§ 10(b) of the Securities Exchange Act of 1934, 15 U.S.C.
§ 78j, and the corresponding Securities and Exchange
Commission Rule 10b-5, 17 C.F.R. § 240.10b-5. In this
section of the complaint, Plaintiffs argued that Edward
Jones “failed to disclose” the fact that financial advisors
“did not conduct a suitability analysis to assess whether
a fee-based account was suitable or otherwise in the best
interests of clients, prior to transferring the clients from
commission-based accounts to fee-based accounts.”
Plaintiffs claimed that “[t]he commission-based/feebased dichotomy is critical and material to any

8a
investment decision, including Lead Plaintiffs’ and the
Class members’ investment decisions to transfer them
from commission-based accounts into fee-based
accounts.” Plaintiffs did not devote a section of the Rule
10b-5 cause of action to showing that there was “a
connection
between
[Edward
Jones’s]
misrepresentation or omission and the purchase or sale
of a security.” Halliburton Co. v. Erica P. John Fund,
Inc., 573 U.S. 258, 267 (2014).
Referring to the choice of investment advisor,
rather than the choice to purchase or sell a security,
Plaintiffs alleged:
[I]f [Edward Jones] disclosed to Lead
Plaintiffs that Edward Jones was not
fulfilling even its most basic responsibilities
as
an
investment
advisor—namely,
conducting a suitability analysis—Lead
Plaintiffs’ trust in the relationship would
have faltered and a reasonable investor
would have looked elsewhere for investment
advisory services or chosen not to heed their
[financial advisor’s] advice.
The district court dismissed the complaint with
prejudice. In re Edward D. Jones & Co., L.P. Sec.
Litig., No. 2:18-CV-00714-JAM-AC, 2019 WL
5887209, at *8 (E.D. Cal. Nov. 12, 2019). The district
court characterized Plaintiffs’ fiduciary duty causes of
action as alleging a misrepresentation or omission
based on Edward Jones not conducting a suitability
analysis. Id. at *2. The district court reasoned that
Plaintiffs could not plead a state law fiduciary duty
claim and a federal securities claim based on the same
conduct when Plaintiffs characterized the lack of a
suitability analysis as an omission for the federal law
claim, but not an omission for the state law claim. Id.

9a
Thus, in accordance with the previous dismissal,2 the
district court held, pursuant to SLUSA, that it had no
jurisdiction over the class action state law claim. See
id. The court did not address whether the lack of a
suitability analysis was “in connection with the
purchase or sale of a covered security” for the
fiduciary duty claims.3 15 U.S.C. § 78bb(f)(1)(A).
The district court also held that the Rule 10b-5
claim failed for a number of reasons. Relevant here,
the district court decided that the alleged lack of
suitability analysis was not an actionable omission
because Edward Jones provided Plaintiffs with
various documents relating to the nature of the feebased accounts. See In re Edward D. Jones, 2019 WL
5887209, at *4–5. The district court also stated that
these various documents “were part of the suitability
analysis [Edward Jones] conducted, further
undermining Plaintiffs’ allegations that [Edward
Jones] did not conduct a suitability analysis.” Id. at
*5 (internal quotation marks and citation omitted).

2

The district court previously dismissed Plaintiffs’ First
Amended Complaint for largely the same reasons, but without
prejudice. In re Edward D. Jones & Co., L.P. Sec. Litig., No. 2:18CV-00714-JAM-AC, 2019 WL 2994486, at *9 (E.D. Cal. July 9,
2019).
3

The district court did hold that Plaintiffs’ breach of contract
claims involved alleged promises that were “in connection with”
the purchase or sale of covered securities. See In re Edward D.
Jones, 2019 WL 5887209, at *2–3. Plaintiffs’ contract claims,
which they do not appeal, were not based on a lack of suitability
analysis, but instead on “the allegation Edward Jones never
intended to provide and did not provide the additional services
purportedly warranting the fees imposed in” the fee-based
accounts. Id. at *2. The district court did “not agree that the
breach of contract claims repackage[d] Plaintiffs’ specific
securities claims.” Id.

10a
The district court additionally addressed scienter,
reliance, and loss causation.
See id. at *5–7.
However, the district court did not decide whether
Plaintiffs’ Rule 10b-5 claim alleged “a connection
between” the lack of a suitability analysis “and the
purchase or sale of a security.” Halliburton, 573 U.S.
at 267.
Plaintiffs appealed only the district court’s
dismissal of the state fiduciary duty claims. Plaintiffs
did not appeal the dismissal of any other claims
brought before the district court.
II. STANDARD OF REVIEW
We have jurisdiction to entertain this appeal
pursuant to 28 U.S.C. § 1291. Banks v. N. Tr. Corp.,
929 F.3d 1046, 1049 (9th Cir. 2019). “[D]ismissals
under SLUSA are jurisdictional,” governed by Federal
Rule of Civil Procedure 12(b)(1). Hampton v. Pac. Inv.
Mgmt. Co. LLC, 869 F.3d 844, 847 (9th Cir. 2017). “We
review de novo a district court’s order granting a
motion to dismiss.” Northstar Fin. Advisors, Inc. v.
Schwab Invs., 904 F.3d 821, 828 (9th Cir. 2018). “In
evaluating [Plaintiffs’] claims, we accept factual
allegations in the complaint as true and construe the
pleadings in the light most favorable to the
nonmoving party.”
Id. (citation and internal
quotation marks omitted).
III. ANALYSIS
A. SLUSA
“SLUSA bars a plaintiff class from bringing (1) a
covered class action (2) based on state law
claims (3) alleging that the defendants made a
misrepresentation or omission or employed any
manipulative or deceptive device (4) in connection with

11a
the purchase or sale of (5) a covered security.”
Northstar, 904 F.3d at 828; 15 U.S.C. § 78bb(f)(1).
SLUSA is to be given a broad interpretation.
Merrill Lynch, Pierce, Fenner & Smith Inc. v. Dabit,
547 U.S. 71, 85 (2006). SLUSA “seeks to prevent state
class actions alleging fraud ‘from being used to
frustrate the objectives’ of the” Private Securities
Litigation Reform Act of 1995, which created
heightened pleading requirements for securities class
actions. Freeman Invs., L.P. v. Pac. Life Ins. Co., 704
F.3d 1110, 1114 (9th Cir. 2013) (citation omitted). The
statute “is designed to prevent persons injured by
securities transactions from engaging in artful
pleading or forum shopping in order to evade limits on
securities litigation that are designed to block frivolous
or abusive suits.” Holtz v. JPMorgan Chase Bank,
N.A., 846 F.3d 928, 930 (7th Cir. 2017). Accordingly,
while we normally construe federal statutes
preempting state laws narrowly, “this general
principle carries far less force when construing
SLUSA,” because SLUSA does not preempt state law
claims; it only prohibits use of the class action device
for certain claims by fifty or more persons. Northstar,
904 F.3d at 829 (citing Dabit, 547 U.S. at 87).4
4

SLUSA defines “covered class action” as “any single lawsuit
in which . . . damages are sought on behalf of more than 50
persons or prospective class members.”
15 U.S.C.
§ 78bb(f)(5)(B)(i)(I). Thus, “SLUSA does not actually pre-empt
any state cause of action.” Dabit, 547 U.S. at 87. Instead, the
statute “simply denies plaintiffs the right to use the class-action
device to vindicate certain claims. [SLUSA] does not deny any
individual plaintiff, or indeed any group of fewer than 50
plaintiffs, the right to enforce any state-law cause of action that
may exist.” Id. The district court technically erred in discussing
“SLUSA preemption.” See In re Edward D. Jones, 2019 WL
5887209, at *2.

12a
However, SLUSA “is not boundless. It ‘does not
transform every breach of fiduciary duty into a federal
securities violation.’” Rowinski v. Salomon Smith
Barney Inc., 398 F.3d 294, 301 (3d Cir. 2005) (quoting
SEC v. Zandford, 535 U.S. 813, 825 n.4 (2002)). To
interpret SLUSA too broadly “would interfere with
state efforts to provide remedies for victims of
ordinary state-law frauds.” Chadbourne & Parke LLP
v. Troice, 571 U.S. 377, 391 (2014). “[A] claim is not
automatically SLUSA-barred merely because it
involves securities.” Fleming v. Charles Schwab
Corp., 878 F.3d 1146, 1153 (9th Cir. 2017).
Finally, because SLUSA includes many statutory
terms that Congress also used in § 10(b), courts look
to § 10(b) and cases interpreting that statute when
deciding SLUSA cases. See, e.g., Dabit, 547 U.S. at
86; Fleming, 878 F.3d at 1152–53.
B. Overlapping Claims
SLUSA’s restrictions on bringing a claim as a
class action “does not turn on the name or title given to
a claim by the plaintiff. It turns instead on the
gravamen or essence of the claim.” Northstar, 904
F.3d at 829 (internal quotation marks and citation
omitted). We “must determine if the Plaintiffs’
claims, stripped of formal legal characterization,
could have been pursued under § 10(b) and Rule 10b5.” Fleming, 878 F.3d at 1153; see also Goldberg v.
Bank of Am., N.A., 846 F.3d 913, 916 (7th Cir. 2017)
(per curiam). “[P]laintiffs cannot avoid” the SLUSA
class action bar “‘through artful pleading that
removes the covered words . . . but leaves in the
covered concepts.’” Freeman, 704 F.3d at 1115
(citation omitted). However, “[j]ust as plaintiffs
cannot avoid SLUSA through crafty pleading,
defendants may not recast [state law] claims as fraud

13a
claims by arguing that they ‘really’ involve deception
or misrepresentation.” Id. at 1116.
Edward Jones argues that Plaintiffs’ “position on
appeal cannot be reconciled with the operative
complaint.” Essentially, Edward Jones contends that
Plaintiffs’ Second Amended Complaint is internally
inconsistent.
In the Rule 10b-5 portion of the
complaint, Plaintiffs alleged that “[t]he commissionbased/fee-based dichotomy is critical and material to
any investment decision.” Yet, as detailed below, for
Plaintiffs’ fiduciary duty claims to survive SLUSA,
they must show that the move from commission-based
to fee-based accounts was not material to the decision
to purchase or sell covered securities.
Even if Plaintiffs’ complaint is internally
inconsistent, that does not mean that SLUSA
automatically blocks them from bringing their state
law claims as a class action. The question of whether
a plaintiff could have pursued a claim pursuant to
Rule 10b-5 is distinct from the question of whether a
plaintiff did pursue that claim pursuant to Rule 10b5. A plaintiff can plead both state law and federal
securities claims in the same complaint based on the
same underlying conduct by the defendant. The
presence of a federal securities cause of action does not
mechanically bar the plaintiff from pursuing a state
law class action in the same complaint. See Fleming,
878 F.3d at 1153; Norman v. Salomon Smith Barney
Inc., 350 F. Supp. 2d 382, 387 (S.D.N.Y. 2004). To hold
otherwise would prevent plaintiffs from pursuing
multiple theories of recovery.
“In light of the liberal pleading policy embodied in
[Federal Rule of Civil Procedure 8(e)], . . . a pleading
should not be construed as an admission against
another alternative or inconsistent pleading in the

14a
same case,” at least at the “initial pleading stage.”
Molsbergen v. United States, 757 F.2d 1016, 1019 &
n.4 (9th Cir. 1985). Furthermore, forcing a plaintiff to
bring different suits containing their federal and state
law claims would be inefficient for district courts in
these often-complex cases. The precept that a plaintiff
can pursue multiple, even if inconsistent, theories of
recovery in the same suit is especially true when the
plaintiff does not maintain that inconsistency on
appeal.
Here, Plaintiffs have not appealed the
dismissal of their Rule 10b-5 claim.
The district court implicitly recognized that
Plaintiffs pursued two inconsistent causes of action:
Plaintiffs maintain [that the lack of
suitability analysis], unlike the conduct
underlying their federal securities claim, is
“not based on misrepresentations or
omissions.” And yet, when describing their
federal securities claim pages before,
Plaintiffs characterized [Edward Jones’s]
failure to conduct a suitability analysis as a
“misleading omission.” [Edward Jones’s]
suitability analysis, or lack thereof was
either an omission or it wasn’t—Plaintiffs
cannot have it both ways.
In re Edward D. Jones, 2019 WL 5887209, at *2
(citations omitted). The district court was partially
right. In light of SLUSA, “Plaintiffs cannot have it
both ways.” Id. Plaintiffs’ fiduciary duty claims
cannot proceed as a class action if those claims give
rise to a Rule 10b-5 claim. That is the very purpose of
SLUSA. However, that Plaintiffs cannot have it both

15a
ways does not necessarily mean that they cannot have
it either way.5
This is not to say that every unsuccessful Rule
10b-5 claim bypasses SLUSA. The overlap between
claims that are both unsuccessful under federal
securities laws and those subject to SLUSA’s class
action bar is not clear and may require further
elaboration by our court or the Supreme Court.
However, we need not draw the exact line in this case.
As we discuss below, Edward Jones’s alleged breach
of its fiduciary duties was clearly not “in connection
5

In Northstar, we cautioned that courts should not limit their
consideration “to a pleading’s satisfaction of the bare elements of
the state law claim” without also considering how the facts
underlying those claims could be pleaded as federal securities
law violations. Northstar, 904 F.3d at 832. We did not state that
the mere presence of a federal securities law cause of action in
the same complaint doomed any state law claim as a class action
under SLUSA. Additionally, in Northstar we discussed only
“whether the plaintiff class alleged that the defendants made a
misrepresentation or omission.” Id. at 828. As the district court
noted in this case, Plaintiffs might have alleged that the lack of
suitability analysis was both an omission for the purposes of Rule
10b-5 and not an omission for the purposes of the state fiduciary
duty claims. See In re Edward D. Jones, 2019 WL 5887209, at
*2.
Here, we instead decide whether any purported
misrepresentation or omission was “in connection with the
purchase or sale of . . . a covered security.” Northstar, 904 F.3d
at 828. The district court did not address the “in connection with”
requirement for either the fiduciary duty or Rule 10b-5 claims.
See id.; Halliburton, 573 U.S. at 267. The district court only did
so for Plaintiffs’ contract claims, which were based on different
conduct. See supra n.3. Thus, it is unclear if the district court
would have held that Plaintiffs’ allegation of a lack of suitability
analysis was “a connection between the misrepresentation or
omission and the purchase or sale of a security” for the purposes
of Rule 10b-5. Halliburton, 573 U.S. at 267.

16a
with the purchase or sale of a covered security.” 15
U.S.C. § 78bb(f)(1)(A). Thus, that Plaintiffs simply
have pleaded a Rule 10b-5 claim does not mean that
SLUSA bars them from bringing their state law
fiduciary duty claims as a class action.
The parties further dispute whether a court
should review only the state law cause of action, or the
entire complaint (including any federal securities
cause of action), when determining whether SLUSA
bars jurisdiction over the class action.
This
disagreement misunderstands the SLUSA analysis.
SLUSA requires a court to “determine if the Plaintiffs’
claims, stripped of formal legal characterization, could
have been pursued under § 10(b) and Rule 10b-5.”
Fleming, 878 F.3d at 1153. “Could have been
pursued” means that courts must analyze a plaintiff’s
state law allegations under federal securities law in
every case, regardless of whether the plaintiff has
actually alleged a federal securities law violation.
Referencing a plaintiff’s Rule 10b-5 claim from the
same complaint might help a court accomplish this
task, but the court would need to conduct such an
analysis even in the absence of a pleaded federal
securities claim.6
C. “In Connection With” Requires Materiality
For SLUSA’s class action bar to apply, the
defendant’s misrepresentation or omission must be “in
6

Because “dismissals pursuant to SLUSA’s class-action bar
must be for lack of subject-matter jurisdiction,” Hampton, 869
F.3d at 846, it appears that a court must raise SLUSA in every
class action involving a claim that could implicate federal
securities law, see Fed. R. Civ. P. 12(h)(3) (“If the court
determines at any time that it lacks subject-matter jurisdiction,
the court must dismiss the action.”). It is nonetheless more
efficient for a party to bring SLUSA to the court’s attention.

17a
connection with the purchase or sale of . . . a covered
security.” Northstar, 904 F.3d at 828. Plaintiffs argue
that their fiduciary duty claims “pertain to the terms
of the relationship between Edwards Jones and the
Plaintiffs and the vehicle for delivering the
securities—neither of which are in connection with the
purchase or sale of the securities themselves.” The
district court did not address the “in connection with”
requirement for the SLUSA bar or the Rule 10b-5
claim. See In re Edward D. Jones, 2019 WL 5887209,
at *2, *6. We now evaluate whether the alleged breach
of Edward Jones’s fiduciary duties—namely the
purported lack of suitability analysis—is in connection
with the purchase or sale of a covered security.
The Supreme Court’s explanation of the phrase
“in connection with” has shifted in recent years. In
Dabit, the Court gave “in connection with” a relatively
broad interpretation. Drawing on § 10(b) precedent,
the Court stated that “it [wa]s enough that the fraud
alleged ‘coincide[d]’ with a securities transaction—
whether by the plaintiff or by someone else.” Dabit,
547 U.S. at 85. We then adopted this “coincide”
standard. See, e.g., Freeman, 704 F.3d at 1116–17.
Eight years after Dabit, the Court again
confronted the “in connection with” issue, this time in
Troice. There, the Court held that the phrase requires
a
showing
of
materiality:
“A
fraudulent
misrepresentation or omission is not made ‘in
connection with’ such a ‘purchase or sale of a covered
security’ unless it is material to a decision by one or
more individuals (other than the fraudster) to buy or
sell a ‘covered security.’” Troice, 571 U.S. at 387. The
Court further explained:
The phrase “material fact in connection with
the purchase or sale” suggests a connection

18a
that matters. And for present purposes, a
connection
matters
where
the
misrepresentation makes a significant
difference to someone’s decision to purchase
or to sell a covered security, not to purchase or
to sell an uncovered security, something about
which [SLUSA] expresses no concern.
Id. at 387–88.
The Court explained that the
materiality principle “d[id] not . . . modify Dabit.” Id.
at 387; but see Id. at 411 (Kennedy, J., dissenting)
(“[T]he Court’s analysis is inconsistent with the
unanimous opinion in Dabit . . . .”). The Court
reasoned that every previous case involving the inconnection-with language “concerned a false
statement (or the like) that was ‘material’ to another
individual’s decision to ‘purchase or s[ell]’” a covered
security, allowing the two decisions to be consistent.
Id. at 393 (majority opinion).
Whether one views the difference between Dabit
and Troice as a change in interpretation or simply
further explanation of SLUSA, our sister circuits have
taken this shift seriously. The Sixth Circuit, preTroice, held that SLUSA “does not ask whether the
complaint makes ‘material’ or ‘dependent’ allegations
of misrepresentation in connection with buying or
selling securities.” Segal v. Fifth Third Bank, N.A.,
581 F.3d 305, 311 (6th Cir. 2009). However, last year,
the First Circuit noted that it had “interpreted Troice
to infuse the transactional nexus analysis with a
determinative inquiry into materiality.”
United
States v. McLellan, 959 F.3d 442, 459 (1st Cir. 2020);
see also Taksir v. Vanguard Grp., 903 F.3d 95, 97 (3d
Cir. 2018) (“[T]he Supreme Court in Troice made clear
that: (1) materiality is relevant to the analysis of

19a
SLUSA’s prohibitive scope; and (2) Troice clarifies—
rather than modifies—Dabit.”).
We too have noted this shift. For example, in
Banks, we concluded that pre-Troice cases read “in
connection with” too broadly. See Banks, 929 F.3d at
1053–54. We explained that the phrase still “must be
read broadly, but not so broadly that the connection
between a defendant’s conduct and the covered
security becomes immaterial.” Id. at 1054.
We have been less than precise as to Troice’s
impact. In Fleming, we reiterated Dabit’s “coincide”
language and implied that the materiality
requirement accords with the bare requirement that
“[t]he misrepresentation need only ‘have more than
some tangential relation to the securities
transaction.’” Fleming, 878 F.3d at 1155 (quoting
Freeman, 704 F.3d at 1116); see also Banks, 929 F.3d
at 1054 (quoting the “tangential relation” language).
In Fleming, we quoted Troice’s materiality language in
a parenthetical, see Fleming, 878 F.3d at 1155. We
later noted that “SLUSA requires only that ‘the
misrepresentation makes a significant difference to
someone’s decision to purchase or to sell a covered
security.’” Id. at 1156 (quoting Troice, 571 U.S. at
387).
The five-part test for SLUSA we enunciated in
Northstar and other cases does not explicitly include
the requirement of “materiality.” See Northstar, 904
F.3d at 828. We take this opportunity to clarify that
the fourth prong of that test—“in connection with the
purchase or sale,” id.—must include an inquiry into
the materiality of the alleged misrepresentation or
omission to the purchase or sale of a covered security.
See Banks, 929 F.3d at 1051. SLUSA itself does not
define “in connection with” or “materiality.” See

20a
Troice, 571 U.S. at 398 (Thomas, J., concurring); see
also Grund v. Del. Charter Guarantee & Tr. Co., 788
F. Supp. 2d 226, 239 & n.3 (S.D.N.Y. 2011). We repeat
the Supreme Court’s admonition in Troice: “[A]
connection matters where the misrepresentation
makes a significant difference to someone’s decision to
purchase or to sell a covered security.” Troice, 571
U.S. at 387.
D. The Alleged Lack of Suitability Analysis Was
Not Material
With this materiality requirement in mind, we
turn to Plaintiffs’ claim that the lack of a suitability
analysis did not have a connection to the purchase or
sale of a covered security.
i.

Fees

In a number of cases from outside this circuit,
plaintiffs have alleged that defendant brokerage firms
violated state law by charging customers transaction
fees that exceeded the actual cost to the firm when
purchasing or selling a covered security. See, e.g., Brink
v. Raymond James & Assocs., Inc., 892 F.3d 1142, 1144–
45 (11th Cir. 2018). “[C]ustomers chose to trade
securities with full knowledge of the amount of the
Processing Fee for each trade and never paid more than
they agreed.” Id. at 1149. However, the plaintiffs
argued that inflating the fee beyond the actual cost of
the transaction constituted a breach of the firm’s state
law “duty of care owed to its customers, which
[plaintiffs] alleged included a duty to charge customers
a reasonable fee for [the firm’s] services.” Id. at 1145.
The Eleventh Circuit concluded that SLUSA did
not prohibit litigating this state law claim as a class
action because “a reasonable investor would [not] have
made different investment decisions had she known

21a
that some of the Processing Fee . . . included profit for
[the brokerage firm] instead of merely covering the
transaction execution and clearing costs.” Id. at 1149.
For support, the Eleventh Circuit cited decisions from
the Second and Seventh Circuits that had reached
similar conclusions concerning fees. See Appert v.
Morgan Stanley Dean Witter, Inc., 673 F.3d 609, 617
(7th Cir. 2012) (holding that SLUSA did not bar
bringing a breach of contract claim as a class action
because “whether Morgan Stanley improperly inflated
the . . . fee to include a profit is not objectively material
to . . . any class members’ investment decisions”);
Feinman v. Dean Witter Reynolds, Inc., 84 F.3d 539,
541 (2d Cir. 1996) (holding, in the context of a § 10(b)
claim, that “reasonable minds could not find that an
individual investing in the stock market would be
affected in a decision to purchase or sell a security by
knowledge that the broker was pocketing a dollar or
two of the fee charged for the transaction”). Thus, such
fees were not material to the decision to buy or sell
securities for both SLUSA and § 10(b).
Plaintiffs’ allegations are based on fees charged by
their financial advisor, Edward Jones. Anderson
alleges, for example, that “during the history of his
commission-based account, [he] had paid minimal fees
each year.” “After he was moved into [a fee-based
account], he paid over $6,000 in fees and would have
seen his account balance materially diminish each
year for the life of the account had he not closed it.”
It is difficult to compare Plaintiffs’ fees to those in
Brink and the other out-of-circuit fees cases. In Brink,
the broker charged “$30.00 to $50.00 per transaction,
depending on the type of security.” Brink, 892 F.3d at
1144. Thus, each and every time that the broker
purchased or sold a covered security for a customer, the

22a
broker charged that customer a fee. See also Taksir,
903 F.3d at 96 (noting that “Vanguard charged the
Taksirs a $7 commission for each of their respective
purchases” of Nokia Corporation stock). In this case,
Edward Jones took a percentage of each customer’s
total assets on a regular basis.
For the Brink court, it was “the nature of the fees,
not
their
amount,
that
render[ed]
the
misrepresentation immaterial as a matter of law.”
Brink, 892 F.3d at 1149; but see Taksir, 903 F.3d at 99
(“In contrast with such significant investments, singledigit differences in trading commissions are
objectively immaterial.”). We agree that Brink’s
reasoning applies to this case. It is not the amount of
fees that Edward Jones charged Plaintiffs that renders
those fees immaterial.
Instead, the fees are
immaterial because the Second Amended Complaint
alleges that Plaintiffs did not buy or sell any covered
securities because Edward Jones switched them to feebased accounts. Nowhere do Plaintiffs allege that they
would have purchased or sold different covered
securities had Edward Jones conducted a suitability
analysis, which might have resulted in Plaintiffs
remaining in commission-based accounts. Edward
Jones’s purported lack of suitability analysis is less
material to the trading of covered securities than the
brokers’ actions in Brink and the other fees cases. The
fees in Brink were paid each time the broker bought or
sold a security. Here, Plaintiffs paid a fee “regardless
of the transactions” Edward Jones took on their behalf.
Even if we look to the Rule 10b-5 portion of the
complaint, Plaintiffs do not allege that their trading
strategies would have changed. Indeed they claim
just the opposite.
Plaintiffs allege that, after
transferring to fee-based accounts, Plaintiffs’ “buy-

23a
and-hold philosophy remained unchanged.” Plaintiffs
do allege that “[t]he commission-based/fee-based
dichotomy is critical and material to any investment
decision,” but the only example they give is their
decision “to transfer . . . from commission-based
accounts into fee-based accounts.” Plaintiffs inform
us that they “do not allege in their fiduciary [duty]
claims that . . . Edward Jones’s conduct” caused them
to change their trading behavior. Again, Plaintiffs
point to no instance where they would have traded
covered securities differently had Edward Jones
conducted a suitability analysis.
The lack of
modification of Plaintiffs’ investment strategies
suggests that the lack of suitability analysis did not
materially affect the purchase or sale of any covered
securities. Cf. Fleming, 878 F.3d at 1156 (holding that
the claim met the “in connection with” requirement
when the plaintiffs’ “allegations make clear that if
Schwab had not misled Plaintiffs into believing that
Schwab would obtain the best prices for Plaintiffs’
trades, Plaintiffs would not have made those trades”).
In Freeman, we did connect the particular fees at
issue with the purchase or sale of covered securities.
We held that the “excessive cost of insurance charges”
was “in connection with” the purchase or sale of a
security because “[e]ach inflated charge . . . depletes the
value of the investment.” Freeman, 704 F.3d at 1114,
1117. We wrote that “[a] fund subject to higher fees and
charges will, over time, have a lower value than a fund
subject to more modest charges.” Id. at 1117. However,
we decided Freeman before the Supreme Court handed
down Troice, and nowhere did we cite a materiality
requirement. We only required that there be “more
than some tangential relation to the securities

24a
transaction.” Id. at 1116 (citation and internal
quotation marks omitted).7
Additionally, in Freeman, “[e]very time [the
insurance company] collected the allegedly inflated
cost of insurance charge, it sold securities to generate
the funds.” Id. at 1118; see also Behlen v. Merrill
Lynch, 311 F.3d 1087, 1094 (11th Cir. 2002) (deciding
that fees “were an integral part of the transactions”
where “the very reason [plaintiffs] were sold the Class
B shares was because those shares were subject to the
excess fees and commissions”). That is not the
situation here. There is no allegation that Edward
Jones bought or sold securities to generate the fees
that Plaintiffs owed after switching to fee-based
accounts.
ii. Choice of Broker
Plaintiffs allege that they changed their
investment behavior in one sense after switching to
fee-based accounts: they closed their accounts. In
effect, they left Edward Jones and found a new broker.
Choosing a broker or specific type of account is
fundamentally different than choosing to buy or sell a
covered security. “[T]he choice of a type of investment
account, much like the choice of a broker-dealer, is not
intrinsic to the investment decision itself.” Brink, 892
F.3d at 1148–49; see also SEC v. Goble, 682 F.3d 934,
943 (11th Cir. 2012) (interpreting the materiality
requirement under § 10(b) “to mean an investment
7

Further supporting the notion that Troice changed the
landscape for the fees cases are examples of other courts holding,
pre-Troice, that fees were “in connection with” the buying and
selling of covered securities. See, e.g., Rowinski, 398 F.3d at 303;
Dommert v. Raymond James Fin. Servs., Inc., No. CIV A. 1:06CV-102, 2007 WL 1018234, at *11 (E.D. Tex. Mar. 29, 2007).

25a
decision—not an individual’s choice of brokerdealers”); accord Abada v. Charles Schwab & Co., Inc.,
127 F. Supp. 2d 1101, 1103 (S.D. Cal. 2000) (holding
that SLUSA’s “in connection with” requirement was
not met because the “defendant’s conduct had nothing
to do with the trading of any particular security . . .
but merely involved the relationship between Schwab
and its customers”).8
Edward Jones is correct that Plaintiffs argued to
the district court that they “would have looked
elsewhere for investment advisory services” had
Edward Jones disclosed that they failed to conduct a
suitability analysis. Closing an investment account is
not equivalent to buying or selling a covered security.
SLUSA bars only class actions for claims that are “in
connection with” the latter.
iii. Best Execution
Edward Jones draws our attention to a series of
cases involving the duty of best execution. A
violation of such a duty occurs when a broker “directs
large blocks of its clients’ trade orders to . . . predetermined trading venues where [the broker] will
8

As with fees, some pre-Troice cases held that a brokerinvestor relationship satisfied the “in connection with”
requirement. See, e.g., Rowinski, 398 F.3d at 303 (“[T]he action
arises from the broker/investor relationship, the ‘very purpose’ of
which is ‘trading in securities.’” (citation omitted)). Rowinski’s
holding is in contrast to the post-Troice cases, such as Brink.
The First Circuit recently decided that the choice of an asset
transition manager was material, but that court specifically
distinguished brokers. See McLellan, 959 F.3d at 462. The asset
transition manager’s misrepresentations “concerned the costs of
the trades themselves,” and not “ancillary facts about [brokers’]
businesses, such as the nature of a processing fee and the
financial state of the firm.” Id.

26a
maximize kickback revenue.” Lewis v. Scottrade, Inc.,
879 F.3d 850, 854 (8th Cir. 2018) (internal quotation
marks and citation omitted). We decided that “[a]
broker’s fraudulent claim that it is able to provide best
execution can surely be material to the client’s decision
to trade.” Fleming, 878 F.3d at 1156; see also Lewis,
879 F.3d at 853. Breaching the duty of best execution
is “in connection with” the purchase or sale of a
covered security because “if [the broker] had not
misled Plaintiffs into believing that [it] would obtain
the best prices for Plaintiffs’ trades, Plaintiffs would
not have made those trades.” Fleming, 878 F.3d at
1156.
Again, Plaintiffs’ allegations do not relate to the
purchase or sale of any particular security, or even any
group of securities. Cf. McLellan, 959 F.3d at 463
(“[T]here need not ‘be a misrepresentation about the
value of a particular security in order to run afoul of
[§ 10(b)].’” (quoting Zandford, 535 U.S. at 820)). The
fees affect the net value of Plaintiffs’ assets stored in
an Edward Jones account, but the fees as alleged do
not affect the net price of buying or selling securities
for that account. Because the purported lack of a
suitability analysis does not affect the price of any
security when it is bought or sold, Plaintiffs do not
allege that they “would not have made [certain]
trades,” as in Fleming. 878 F.3d at 1156.
iv. Edward Jones’s Other Arguments
Edward Jones highlights two paragraphs of the
fiduciary duty claims in the Second Amended
Complaint to try to show that Plaintiffs are alleging
that the purported lack of suitability analysis relates
to the buying or selling of securities, not just the choice
of account or brokerage firm.

27a
First, Edward Jones calls attention to the
following allegation:
Although Edward Jones may have exercised
some trades in Lead Plaintiffs’ and Class
members’
fee-based
accounts,
these
additional trades (“Phantom Trades”) were
not made with any real analysis, nor made to
enhance the value of the fund’s assets, but to
give the appearance that Edward Jones was
managing the fee-based account in a
deceptive effort to justify its fees it now
“earned” as a percentage of the accounts’
assets.
This specific allegation appears to be irrelevant to
Plaintiffs’ fiduciary duty claims. We gather that
Plaintiffs are attempting to show how Edward Jones
wanted to justify its recommendation to switch to feebased accounts after the switch took place. Plaintiffs’
fiduciary duty claims are based on the allegation that
the switch itself was improper without a suitability
analysis. Once Edward Jones allegedly failed to
conduct a suitability analysis, and made a
recommendation without that analysis, causing
Plaintiffs to switch accounts, the breach of fiduciary
duty would be complete. This paragraph in Plaintiffs’
Second Amended Complaint perhaps provides context
to their claim, but “complaints are often filled with
more information than is necessary.” LaSala v.
Bordier et Cie, 519 F.3d 121, 141 (3d Cir. 2008). “[T]he
inclusion of such extraneous allegations does not
operate to require that the complaint must be
dismissed under SLUSA.” Id.; cf. In re Charles
Schwab Corp. Secs. Litig., 257 F.R.D. 534, 551 (N.D.
Cal. 2009) (“True, those allegations are incorporated

28a
by reference into the state claims but are really
irrelevant thereto.”).9
Second, Edward Jones points to Plaintiffs’
allegation that when they moved from commissionbased to fee-based accounts, it was done “through the
sale of the[] assets” in Plaintiffs’ accounts. Though
Edward Jones did not highlight this allegation in its
brief, at oral argument, counsel for Edward Jones
contended that this allegation shows that Plaintiffs’
allegations are “in connection with the purchase or
sale of . . . a covered security.” Northstar, 904 F.3d at
828.
We note that this phrase appears a single time in
the complaint, in a parenthetical, and in a paragraph
devoted to alleging that Edward Jones did not conduct
a suitability analysis. It is not at all clear what this
phrase means. Anderson alleges that Edward Jones
“moved his assets into” a fee-based account. Other
Plaintiffs allege the same. Plaintiffs often refer to how
Edward Jones “transferr[ed] . . . clients’ assets from
commission-based accounts to” fee-based accounts, but
Plaintiffs do not allege that they bought or sold
different assets in those fee-based accounts.
Additionally, Edward Jones does not point to any
evidence in the record to prove that it sold any covered
securities on Plaintiffs’ behalf after they transferred to
fee-based accounts. From the face of the complaint,
and “constru[ing] the pleadings in the light most
favorable to” Plaintiffs, id. (citation and internal
9

Additionally, Plaintiffs make clear in the Rule 10b-5 portion
of the complaint that “to the extent Edward Jones ever
performed a suitability review of Lead Plaintiffs, it performed
such review only in connection with trades made after it had
transferred Lead Plaintiffs’” assets to fee-based accounts.

29a
quotation marks omitted), this single phrase does not
show that there was a material connection between
the alleged lack of suitability analysis and the
“purchase or sale of . . . a covered security,” id.10
10

Additionally, although the Second Amended Complaint does
not show that the SLUSA class action bar applies because of this
parenthetical, our independent review of the record indicates
that, at least in theory, Edward Jones had the ability to purchase
or sell securities on Plaintiffs’ behalf after Plaintiffs transferred
to fee-based accounts. Edward Jones clients purportedly signed
an agreement before transferring to fee-based accounts that
suggests that Edward Jones distinguished between certain types
of securities that could be held in commission-based accounts and
in fee-based accounts. The agreement provides that “[i]f the
Client transfers into the [fee-based] Account marketable
securities that are not” permitted in a fee-based account, then
that “Client . . . directs Edward Jones . . . to promptly sell those
securities . . . .” A client also “agree[d] that it has determined to
participate in the [fee-based account] and to direct the sales of
those securities not otherwise on the Program List,” i.e., the list
of funds that Edward Jones permitted a client to hold in a feebased account. Even if Edward Jones sold some of Plaintiffs’
securities after the transfer to the fee-based accounts, Edward
Jones has not shown that the alleged lack of suitability analysis
was “in connection with” the purchase or sale of the securities for
two reasons.
First, similar to the “phantom trades” argument, Plaintiffs’
fiduciary duty claim is based on the alleged lack of suitability
analysis, not on post-transfer sales of securities. Once Plaintiffs
agreed to transfer to fee-based accounts, allegedly because
Edward Jones did not conduct a suitability analysis, the
purported breach of fiduciary duty is complete. Actions Edward
Jones took after the breach, such as selling securities as part of
the transfer of assets into the fee-based accounts, are extraneous
to the alleged state law violation.
Second, as outlined above, Plaintiffs’ complaint is premised
on their “choice of a type of investment account,” which “is not
intrinsic to the investment decision itself.” Brink, 892 F.3d at

30a
Finally, Edward Jones contends that it “did, in
fact, perform a suitability analysis, as demonstrated
by the documents considered by the district court.”
The district court stated, only when discussing the
Rule 10b-5 claim, that the “questionnaires were part
of the suitability analysis [Edward Jones] conducted
. . . further undermining Plaintiffs’ allegations that
[Edward Jones] did not conduct a suitability analysis.”
In re Edward D. Jones, 2019 WL 5887209, at *5
(citation and internal quotation marks omitted).
Whether Edward Jones did or did not conduct a
suitability analysis is a question pertaining to the
substance of the fiduciary duty claims. At this stage,
we decide only whether the district court had
jurisdiction over those claims pursuant to SLUSA. We
must “accept factual allegations in the complaint as
true and construe the pleadings in the light most
favorable to the nonmoving party,” the Plaintiffs.
Northstar, 904 F.3d at 828 (citation and internal
quotation marks omitted). Plaintiffs’ Second Amended
Complaint alleges that Edward Jones failed to conduct
1148–49. The alleged lack of suitability analysis might have
caused Plaintiffs to choose fee-based accounts, but, unlike in
Fleming, Plaintiffs do not allege that they “would not have made
those trades” that occurred after the switch to the fee-based
accounts. Fleming, 878 F.3d at 1156. They tell us the opposite.
Plaintiffs do not allege that they changed their trading behavior
at all; they allege only that they would not have switched to feebased accounts. The alleged lack of suitability analysis must
“make[] a significant difference to [Plaintiffs’] decision to
purchase or to sell a covered security.” Troice, 571 U.S. at 387.
The alleged lack of suitability analysis might have made a
significant difference to the decision to move to fee-based
accounts, but Plaintiffs have not alleged that it made a
significant difference in any decisions to purchase or sell
securities.
Their “buy-and-hold philosophy remained
unchanged.”

31a
a suitability analysis.
A defense that the
questionnaires did amount to such an analysis might
succeed at a later stage of the litigation, but not at this
jurisdictional juncture.
IV. CONCLUSION
We hold that SLUSA does not bar bringing the
state law fiduciary duty claims as a class action in
Plaintiffs’ Second Amended Complaint. Plaintiffs
claim that Edward Jones breached its fiduciary duties
under Missouri and California law by failing to
conduct a suitability analysis. Plaintiffs allege that
this lack of suitability analysis caused them to move
their assets from commission-based accounts to feebased accounts, which was not in their best financial
interest as low-volume traders. Because the alleged
failure to conduct a suitability analysis was not
material to the decision to buy or sell any covered
securities, Plaintiffs’ state law claims are not based on
alleged conduct that is “in connection with” the
purchase or sale of any covered securities. SLUSA
requires that all five elements outlined by this court
be met if a class action is to be barred. See Northstar,
904 F.3d at 828. Because Plaintiffs’ state law claims
do not meet the fourth requirement,11 we reverse the
decision of the district court and remand for further
proceedings consistent with this opinion.
REVERSED AND REMANDED.

11

Because we decide that Plaintiffs’ claims are not “in
connection with the purchase or sale of a covered security,” 15
U.S.C. § 78bb(f)(1)(A), we need not analyze Plaintiffs’ other
contention that the lack of suitability analysis was not a
misrepresentation or omission for the purposes of SLUSA. See
Banks, 929 F.3d at 1055.

32a
APPENDIX B
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA
No. 2:18-cv-00714IN RE EDWARD D. JAM-AC
JONES & CO., L.P. ORDER GRANTING
SECURITIES
DEFENDANTS’
LITIGATION
MOTION TO DISMISS
Dated: November 8, 2019
Filed: November 12, 2019
In March 2018, Plaintiffs filed a federal securities
and state breach of fiduciary duty putative class
action against investment firm Edward D. Jones, L.P.,
as well as a set of companies and individuals related
to the investment firm (together “Defendants” or
“Edward Jones”). Compl., ECF No. 1. Defendants
filed a motion to dismiss. ECF No. 29. The Court
granted their motion, dismissing all of Plaintiffs’
claims without prejudice.
July 9, 2019 Order
(“Order”), ECF No. 46.
Plaintiffs filed a Second Amended Complaint
(“SAC”), ECF No. 47, in which they attempted to cure
their claims’ deficiencies and raised several new
claims. Once again, Defendants move to dismiss
Plaintiffs’ claims. Mot. To Dismiss (“Mot.”), ECF No.
48. Plaintiffs oppose this motion. Opp’n, ECF No. 52.
The Court, however, finds Plaintiffs’ Second Amended
Complaint still fails to state a claim for which relief
can be granted. For this reason, and the reasons
stated below, the Court GRANTS Defendants’ motion

33a
to dismiss, and DISMISSES Plaintiffs’ claims WITH
PREJUDICE.1
I. FACTUAL ALLEGATIONS
The Parties are intimately familiar with
Plaintiffs’ allegations and claims and they will not be
repeated in detail here. In short, Plaintiffs contend
Defendants improperly moved their Edward Jones
commission-based accounts into fee-based accounts.
See generally SAC. Plaintiffs allege this account
conversion violated § 10(b) of the Securities Exchange
Act of 1934 (the “1934 ACT”); Rule 10b-5(a), (b), and
(c); the Investment Advisers Act of 1940 (the
“Advisers Act”); and state common law. SAC ¶ 1.
II. OPINION
A. Judicial Notice and Incorporation by
Reference
“Generally, district courts may not consider
material outside of the pleadings when assessing the
sufficiency of a complaint under Rule 12(b)(6) of the
Federal Rules of Civil Procedure.” Khoja v. Orexigen
Therapeutics, Inc., 899 F.3d 988, 998 (9th Cir. 2018).
However, “there are two exceptions to this rule: the
incorporation-by-reference doctrine, and judicial
notice under Federal Rule of Evidence 201.” Id.
In its previous Order, this Court took judicial
notice of the existence of Edward Jones’ SEC filings,
public comments, and reports.
November 2018
Motion to Dismiss (“Nov. 2018 Mot.”), ECF no. 29,
Exs. 1-6, 34-38, 41, 43-44). See Order at 5-7. This
Court also considered documents, under the
1

This motion was determined to be suitable for decision
without oral argument. E.D. Cal. L.R. 230(g). The hearing was
scheduled for October 8, 2019.

34a
incorporation-by-reference doctrine: Nov. 2018 Mot.,
Exs. 7-12, 14-33. See Order at 6-7. The Court, again,
considers these exhibits.
Defendants also request the Court consider
Exhibit 39 under the incorporation by reference
doctrine. RJN, ECF No. 49. Defendants contend this
exhibit confirms Plaintiff Janet Goral invested in
“covered securities” and is relevant to the issue of
Securities Litigation Uniform Standards Act
(“SLUSA”) preclusion. Id. Plaintiffs oppose this
request. RJN Opp’n, ECF No. 53.
The incorporation by reference doctrine allows
district courts to consider documents attached to a
complaint. U.S. v. Ritchie, 342 F.3d 903, 908 (9th Cir.
2003). Courts may also use this doctrine to consider
documents not attached to a complaint, but only if
“the plaintiff refers extensively to the document or the
document forms the basis of the plaintiff’s claim.” Id.
A document “forms the basis of the plaintiff’s claim”
when the plaintiff’s claim “necessarily depend[s]”
upon that document. Khoja, 899 F.3d at 1002. Here,
the Court cannot determine whether Plaintiffs’ claim
“necessarily depends” on Exhibit 39 because the
exhibit is completely redacted.
Mot., Ex. 39.
Moreover, Plaintiffs “concede[] that the case involves
‘covered’ securities,” RJN, at 6 n.2, so the Court need
not consider Exhibit 39 for that purpose. The Court
therefore DENIES Defendants’ request to incorporate
Exhibit 39 by reference.
B. Analysis
1. Breach of Fiduciary Duty
Defendants argue Plaintiffs’ breach of fiduciary
duty claims under California and Missouri state law
remain preempted by SLUSA. Mot. at 14. The Court

35a
agrees. The Court previously noted, “SLUSA bars a
Plaintiff class from bringing (1) a covered class action
(2) based on state law claims (3) alleging that
defendants made a misrepresentation or omission or
employed any manipulative or deceptive device (4) in
connection with the purchase or sale of (5) a covered
security.” Northstar Fin. Advisors, Inc. v. Schwab
Investments, 904 F.3d 821, 828 (9th Cir. 2018).
Notably, this Court clarified that whether SLUSA
preempts a state cause of action does not turn on
whether plaintiff gives the “same name or title” to the
federal and state claims.” Order at 21 (quoting Id. at
829). Rather, SLUSA preemption depends upon “the
gravamen or essence the claim.” Id. A state law claim
shares the same “gravamen or essence” of a SLUSA
claim when “the complaint describes conduct by the
defendant that would be actionable under the 1933 or
1934 Acts” and “that conduct necessarily will be part
of the proofs in support of the state law cause of
action.” Id. In those circumstances, SLUSA bars the
state law claim, regardless of whether the underlying
conduct is “an essential predicate of the asserted state
law claim.” Id.
In its July 9, 2019 Order, the Court found SLUSA
barred Plaintiffs’ fiduciary duty claims because the
allegations underlying those claims served as “the
same allegations . . . on which Plaintiffs’ securities
claims rel[ied].” Order at 22. Once again, Plaintiffs
fail to demonstrate the deceptive conduct alleged in
their securities claims, is not also at the heart of their
state claims. Plaintiffs argue the “gravamen” of their
state claim is Defendants “engag[ed] in self-dealing to
Plaintiffs’ detriment by placing them in fee-based
accounts without regard to suitability.” Opp’n at 15.
Plaintiffs maintain this conduct, unlike the conduct
underlying their federal securities claim, is “not based

36a
on misrepresentations or omissions.” Opp’n at 12.
And yet, when describing their federal securities
claim pages before, Plaintiffs characterized
Defendants’ failure to conduct a suitability analysis as
a “misleading omission.” Opp’n at 2. Defendants’
suitability analysis, or lack thereof was either an
omission or it wasn’t—Plaintiffs cannot have it both
ways.
For the same reasons articulated in this Court’s
first dismissal order, SLUSA bars Plaintiffs’ state law
fiduciary duty class claims. Accordingly, this Court
lacks subject-matter jurisdiction over Plaintiffs’
breach of fiduciary duty claims under California and
Missouri Law (Counts I and II). Hampton v. Pac. Inv.
Mgmt. Co. LLC, 869 F.3d 844, 847 (9th Cir. 2017)
(“[D]ismissals under SLUSA are jurisdictional.”). The
Court finds amendment to these claims is futile and
DISMISSESS them WITH PREJUDICE.
2. Breach of Contract
Plaintiffs’ Second Amended Complaint introduces
new breach of contract claims. However, Plaintiffs
fail to show these allegations are not likewise
premised on misstatements or omissions.
Defendants argue “Plaintiff’s contract claims are
repackaged versions of the Rule 10b-5 claims,”
because they assert “false promises or promissory
fraud.”
Mot.
at
15.
Plaintiffs
deny
misrepresentations or omissions are factual
predicates to their breach of contract claims. Opp’n at
13. Instead, Plaintiffs assert their breach of contract
claims rest upon the allegation “Edward Jones never
intended to provide and did not provide the additional
services purportedly warranting the fees imposed in
Advisory Solutions accounts.” Opp’n at 14. While the

37a
Court does not agree that the breach of contract
claims repackage Plaintiffs’ specific securities claims,
the Court does find that these claims repackage the
elements of a security claim, generally.
To state a Rule 10b-5 claim, Plaintiffs must allege
“(1) material misrepresentation or omission by the
defendant; (2) scienter; (3) a connection between the
misrepresentation or omission and the purchase or
sale of a security; (4) reliance upon the
misrepresentation or omission; (5) economic loss; and
(6) loss causation.” Halliburton Co. v. Erica P. John
Fund, Inc., 573 U.S. 258, 267 (2014). Plaintiffs’ breach
of contract claims turn upon Defendants’ alleged
misrepresentations or omissions.
For example,
Plaintiffs describe Defendants’ breach of their
promised yearly review (one of the promised
additional services) as a “sham” since the review was
a “10-minute phone call” that could be made every “18
months to 2 years” instead of yearly. SAC ¶¶ 128-129.
The Oxford dictionary defines “sham” as
“something...that is not really what it purports to be.”
By Plaintiffs’ own terms, these newly-raised breach of
contract claims rests upon the old idea that
Defendants misrepresented what they were
promising.
Relying on Pross v. Katz, Plaintiffs argue SLUSA
does not preempt their breach of contract claims
because the promises made in the contract were not
“in connection” with a purchase or sale of security
since they were not “part of the consideration for the
sale.” Opp’n at 14; 784 F.2d 455, 456-57 (2nd Cir.
1986). In Pross, the Second Circuit found a future
contractual promise is “in connection” with a sale of
securities, if it is “part of the consideration for the
sale.” Id. Pross, decided in 1986, is no longer

38a
persuasive or reliable authority.
In 2006, the
Supreme Court held SLUSA’s “in connection with”
requirement be read broadly, finding it “enough that
the fraud alleged ‘coincide’ with a securities
transaction.” Merrill Lynch, Pierce, Fenner & Smith
Inc. v. Dabit, 547 U.S. 71, 85 (2006). This effectively
overruled the Second Circuit’s narrow interpretation
of the phrase. Following the Supreme Court’s decision
in Dabit, the Ninth Circuit adopted a more expansive
interpretation of the phrase “in connection with.” See
Fleming v. Charles Schwab Corporation, 878 F.3d
1146, 1155 (9th Cir. 2017) (stating SLUSA’s “in
connection with” requirement is “satisfied if
misrepresentations simply ‘coincide with a securities
transaction.’”); Freeman Investments, L.P. v. Pacific
Life Ins. Co., 704 F.3d 1110, 117 (9th Cir.
2013)(finding even if plaintiffs cannot satisfy the 10b5(b) standing requirement, SLUSA may bar state law
class actions). Plaintiffs’ breach of contract claims
undeniably “coincid[e] with a securities transaction,”
since they allege Defendants’ breach was partly due to
them not placing its “clients’ interests first” and
“profit[ing] at client expense.” See Fleming, 878 F.3d
at 1155 (emphasizing the false promise of “best
execution” is in fact “in connection with” a sale of
securities).
The Court therefore finds SLUSA also bars
Plaintiffs’ state law breach of contract claims.
Hampton, 869 F.3d at 847. The Court finds amending
these claims is futile and DISMISSES Plaintiffs’
claims WITH PREJUDICE.
3. Unjust Enrichment
Plaintiffs’ Second Amended Complaint also added
an unjust enrichment claim.
SAC ¶¶ 155-58.
Plaintiffs contend this claim rests upon the same

39a
allegations supporting their breach of contract and
breach of fiduciary duties claims. SAC ¶ 155. The
Court finds Defendants’ alleged misrepresentations
and omissions are a factual predicate of this claim.
Accordingly, SLUSA bars this claim and deprives this
Court of jurisdiction. This claim is DISSMISSED [sic]
WITH PREJUDICE.
4. Rule 10b-5(b)
This Court previously dismissed Plaintiffs’ 10b5(b) claims, since they failed to allege the prima facie
elements of these claims. Order at 8. Plaintiffs
reassert their Rule 10b-5(b) claims in the Second
Amended Complaint.
Rule 10b-5 “prohibit[s] making any material
misstatement or omission in connection with the
purchase or sale of any security.” Halliburton, 573
U.S. at 267. To state a Rule 10b-5 claim, Plaintiffs
must allege “(1) material misrepresentation or
omission by the defendant; (2) scienter; (3) a
connection between the misrepresentation or
omission and the purchase or sale of a security; (4)
reliance upon the misrepresentation or omission; (5)
economic loss; and (6) loss causation.” Id. (internal
citations and quotations omitted).
In its previous Order, the Court made clear that a
complaint stating claims under section 10(b) and Rule
10b-5 “must satisfy the dual pleading requirements of
Federal Rule of Civil Procedure 9(b) and the PSLRA
[Private Securities Litigation Reform Act].” Zucco
Partners, LLC v. Digimarc Corp., 552 F.3d 981, 990
(9th Cir. 2009), as amended (Feb. 10, 2009). Rule 9(b)
requires that “circumstances constituting fraud” be
“state[d] with particularity.” Fed. R. Civ. P. 9(b).
Under the PSLRA, the complaint must “specify each

40a
statement alleged to have been misleading, the reason
or reasons why the statement is misleading, and, if an
allegation regarding the statement or omission is
made on information and belief, the complaint shall
state with particularity all facts on which the belief is
formed.” 15 U.S.C. § 78u-4(b)(1).
Defendants argue Plaintiffs have once again
“failed to satisfy the heightened pleading standards
applicable to their 10b-5(b) claims.” Mot. at 2. This
Court agrees.
a. Material Misstatements or Omissions
Under Rule 10b-5(b), it is unlawful “to make any
untrue statement of a material fact or to omit to state
a material fact necessary in order to make the
statements made...not misleading.”
17 C.F.R.
§240.10b-5(b). An omitted fact is material if “there is
a substantial likelihood that a reasonable [investor]
would consider it important.” Omnicare, Inc. v.
Laborers Dist. Council Const. Indus. Pension Fund,
135 S. Ct. 1318, 1333 (2015) (quoting TSC Indus., Inc.
v. Northway, Inc., 426 U.S. 438, 449 (1976)). “Put
another way, there must be a substantial likelihood
that the disclosure of the omitted fact would have been
viewed by the reasonable investor as having
significantly altered the ‘total mix’ of information
made available.” TSC Indus., 426 U.S. at 499.
As they did in their previous complaint, Plaintiffs
continue to frame their claims as based on a set of
“material omissions.” SAC ¶¶ 16-78; Am. Compl.
¶¶ 1, 104-114. Plaintiffs allege Defendants “concealed
the Suitability and [Department of Labor “DOL”]
Fiduciary Rule Omissions and then improperly
transferred Plaintiffs’ assets from commission-based
accounts into fee-based accounts.”
Opp’n at 4.

41a
Defendants maintain they provided “clear and robust
disclosures” that “foreclose the theories Plaintiffs
continue to pursue.” Mot. at 3. The Court agrees.
These alleged omissions remain “not actionable in
light of the totality of Edward Jones’ disclosures in the
Agreement, the Fund Models Brochure, the Account
Client Services Agreement, the Schedule of Fees and
the ‘Making Good Choices’ brochure.” Order at 8.
i. Suitability Omission
Plaintiffs allege “Defendants conducted no
suitability analysis prior to moving commission-based
clients into fee-based accounts.” Opp’n at 2. In its
July 9, 2019 Order, this Court found this claim was
not actionable because it “dovetails” with the
mistaken premise that the costs associated with feebased accounts were misrepresented. Order at 10.
Defendants argue this is still the case. Mot. at 3. The
Court agrees.
To distance themselves from their failed fees
claim in their First Amended Complaint, Plaintiffs
attempt to reformulate their suitability omission
argument as follows:
•

Edward Jones was required as a fiduciary and
under FINRA regulations to perform a
suitability analysis,

•

Edward Jones did not provide Financial
Advisors (“FAs”) with the means to conduct a
suitability analysis to assess whether a feebased account was suitable or otherwise in
the best interest of clients, and

•

FAs did not conduct a suitability analysis.

SAC ¶ 160. But this argument’s substance remains
virtually unchanged.
The crux of Plaintiffs’

42a
suitability omission claim is still that these fee-based
accounts “were not suitable for clients who traded
infrequently because their fees would increase.”
Order at 10; SAC ¶¶ 161-166.
As the Court previously determined, this claim
fails because Plaintiffs received documents: expressly
outlining the schedule of fees for the Advisory
Programs, providing a specific estimate of the
recipient’s anticipated yearly fees, and conceding that
Advisory Programs could “be more expensive than
other investment choices over the long term.” Order
at 9. These disclosures fatally undermine Plaintiffs’
allegations that Defendants omitted information of
these accounts’ suitability. Mot. at 4.
Plaintiffs attempt to discredit any disclosures
they received on the details of these accounts by
arguing Defendants are not permitted under FINRA
to put the onus of conducting a suitability review on
its clients. Id. At the same time, Plaintiffs concede
filling out Defendants’ client questionnaires prior to
converting their accounts into fee-based accounts.
Order at 10. These questionnaires “were part of the
suitability analysis” Defendants conducted, Mot. at 4,
further undermining Plaintiffs’ allegations that
Defendants did not conduct a suitability analysis.
Lastly, as the Court stated in its previous order,
“this alleged omission is more accurately stated as a
misrepresentation by Edward Jones that the Advisory
Programs were suitable for the Plaintiffs.” Order at
10. Absent a genuine allegation that Edward Jones
failed to conduct a suitability analysis, Plaintiffs’
suitability-omission theory of liability falls under Rule
12(b)(6). The Court consequently finds Plaintiffs
failed to allege a suitability claim.

43a
ii. DOL Fiduciary Rule Omission
Plaintiffs’ DOL Fiduciary Rule omission claim
also remains essentially the same. See Order at 10.
Plaintiffs contend Defendants failed to disclose (1) the
DOL adopted a Fiduciary Rule (“DOL Fiduciary
Rule”) and (2) that this rule “did not require Edward
Jones to transfer [Plaintiffs’] assets from commissionbased to fee-based accounts.” SAC ¶ 160.
In its July 9, 2019 Order, this Court found this
claim not actionable, since “Plaintiffs [did] not
specifically allege why this omission was material to
this investment decision under the circumstances,
particularly given Plaintiffs had the choice of signing
the authorization [prior to the transfer of their
accounts].” Order at 11. Defendants argue “Plaintiffs
plead nothing new to change this conclusion.” Mot. at
7. The Court agrees.
Once again, Plaintiffs make the conclusory
allegation “the DOL Fiduciary Rule Omissions
unquestionably would have been material to these
clients’ decision to move to fee-based accounts,”
without specifically alleging why it would be material.
Opp’n at 6. They merely assert “Defendants had a
duty to disclose to clients the basis for systematically
transferring their assets.” Id. This assertion is rather
vague and equally conclusory. The allegations thus
still fail to state a claim upon which relief can be
granted.
b. Scienter
Defendants argue Plaintiffs fall short of
adequately pleading a “strong inference” of “scienter.”
Mot. at 8. To adequately plead scienter, the complaint
must “state with particularity facts giving rise to a
strong inference that the defendant acted with the

44a
required state of mind.” 15 U.S.C. § 78u-4(b)(2). To
meet this state of mind requirement a complaint must
“allege that the defendants made false or misleading
statements either intentionally or with deliberate
recklessness,” where recklessness still “reflects some
degree of intentional or conscious misconduct.” In re
Daou Sys., Inc., 411 F.3d 1006, 1014-15 (9th Cir.
2005), as amended (Aug. 4, 1999). To qualify as
“strong,” “an inference of scienter must be more than
merely plausible or reasonable—it must be cogent and
at least as compelling as any opposing inference of
nonfraudulent intent.” Tellabs, Inc. v. Makor Issues
& Rights, Ltd., 551 U.S. 308, 314 (2007). “[C]ourts
must consider the complaint in its entirety, as well as
other sources courts ordinarily examine when ruling
on Rule 12(b)(6) motions to dismiss” to determine
“whether all of the facts alleged, taken collectively,
give rise to a strong inference of scienter, not whether
any individual allegation, scrutinized in isolation,
meets that standard.” Id. at 322-23 (emphasis in
original).
i. Suitability Omission
Plaintiffs conclude Defendants had the required
scienter because “Defendant Weddle knew or
recklessly disregarded that the new computer system
did not contain tools necessary to conduct a suitability
analysis,” yet continued to direct FA’s to convert
Plaintiffs’ accounts. SAC ¶ 183. But Plaintiffs fail to
demonstrate how knowledge that a computer program
could not conduct a suitability analysis, amounts to
knowledge that Defendants were not conducting a
suitability analysis at all. As Defendants point out,
the computer was not how the “[suitability] work was
done.” Mot. at 8.

45a
Plaintiffs also imply Defendants’ profits from
converting Plaintiffs’ accounts prove Defendant
Weddle knew or recklessly disregarded that these
accounts were converted without a suitability
analysis. See Opp’n at 7 (“significantly, during that
time, Defendant Weddle boasted in EDJ’s SEC filings
that its fee-based revenue had exploded, largely due
to converting existing commission-based accounts into
fee-based accounts.”). But, as the Court makes clear
in its prior order, “the mere fact that Edward Jones
financially benefited from certain clients choosing to
move into fee-based accounts,” “does not establish an
intent to defraud that is at least as compelling as an
opposing inference of nonfraudulent intent.” Order at
13; In re Rigel Pharm,, Inc. Sec. Litig., 697 F.3d 869,
884 (9th Cir. 2012) (“allegations of routine corporate
objectives such as the desire to obtain good financing
and expand are not, without more, sufficient to allege
scienter; to hold otherwise would support a finding of
scienter for any company that seeks to enhance its
business prospects.”).
ii. DOL Fiduciary Rule Omission
Plaintiffs also fail to establish the requisite
scienter for the DOL Fiduciary Rule theory of liability.
Notwithstanding the Court’s prior admonition,
Plaintiffs merely state they “do not need to [establish
scienter] at this stage of the litigation.” Opp’n at 7;
see also Order at 12-14 (explaining Plaintiffs needed
to “establish an intent to defraud that is at least as
compelling as an opposing inference of nonfraudulent
intent.”). Plaintiffs thus fail to adequately allege the
strong inference of scienter required under Rule 10b5.

46a
c. Reliance
Rather than make a traditional reliance
argument, Plaintiffs continue to contend they are
entitled to a presumption of reliance. “Reliance
establishes the casual connection between the alleged
fraud and the securities transaction.” Desai v.
Deutsche Bank Sec. Ltd., 573 F.3d 931, 939 (9th Cir.
2009). Traditionally, the most direct way for plaintiffs
to demonstrate reliance is “by showing that [they
were] aware of a company’s statement and engaged in
a relevant transaction...based on that specific
misrepresentation.” Erica P. John Fund, Inc. v.
Halliburton Co., 563 U.S. 804, 810 (2011). However,
Plaintiffs alleging section 10(b) violations based on
omissions of material fact are entitled to a
presumption of reliance. Binder v. Gillespie, 184 F.3d
1059, 1063 (9th Cir. 1999). This presumption, though,
“should not be applied to cases that allege both
misstatements and omissions unless the case can be
characterized as one that primarily alleges
omissions.” Id. at 1064.
Defendants argue Plaintiffs are not entitled to a
presumption of reliance. As the Court determined in
its previous order, these claims are more properly
characterized as misstatements. Order at 14-15.
Since Plaintiffs have not raised any new arguments to
persuade the Court to the contrary, the Court
maintains this view.
d. Loss Causation
Plaintiffs’ loss causation allegations in their
Second Amended Complaint are largely identical to
those in their First Amended Complaint. Plaintiffs
argue “Defendants’ Suitability and DOL Fiduciary
Rule Omission caused their losses—increased fees

47a
and decreased returns—because if Defendants had
disclosed those material facts, Plaintiffs would not
have moved their assets into fee-based accounts.”
Opp’n at 8. Loss causation is “a causal connection
between the material misrepresentation and the loss”
experienced by the plaintiff. Dura Pharm., Inc. v.
Broudo, 544 U.S. 336, 342 (2005). To allege loss
causation, a plaintiff “must demonstrate that an
economic loss was caused by the defendant’s
misrepresentations, rather than some intervening
event.” Lloyd v. CVB Fin. Corp., 811 F.3d 1200, 1209
(9th Cir. 2016). In turn, “the plaintiff must show that
the revelation of that misrepresentation or omission
was a substantial factor in causing a decline in the
security’s price, thus creating an actual economic loss
for the plaintiff.”
Nuveen Mun. High Income
Opportunity Fund v. City of Alameda, Cal., 730 F.3d
1111, 1119 (9th Cir. 2013) (quoting McCabe v. Ernst
& Young, LLP., 494 F.3d 418, 425-26 (3rd Cir. 2007)).
But “plaintiffs need only show a causal connection
between the fraud and the loss by tracing the loss back
to the very facts about which the defendant lied.”
Mineworkers’ Pension Scheme v. First Solar Inc., 881
F.3d 750, 753 (9th Cir. 2018) (internal citations and
quotations omitted).
Plaintiffs again fail to sufficiently allege loss
causation. The Court previously noted this is not a
typical securities fraud case because Plaintiffs’
allegations do not address the fee-based accounts’
overall performance. Order at 16. Rather, Plaintiffs
contend the loss causation is merely a result of the
higher fees they pay by virtue of being in a fee-based
account. Opp’n at 8. The Court has already explained
there is no actionable omission related to the increase
in fees because the relevant information was
disclosed. Order at 16. For these reasons, and those

48a
discussed in the Court’s prior order, Plaintiffs have
not demonstrated loss causation.
e. Conclusion
Plaintiffs failed to adequately allege any element
in their Rule 10b-5(b) claim under Federal Rule of
Civil Procedure 9(b) and PSLRA. This Court therefore
DISMISSES these claims WITH PREJUDICE.
5. Rules 10b-5(a) and (c)
Plaintiffs also attempt to revive their 10b-5(a) and
(c) claim, this time alleging “Defendants engaged in a
scheme to defraud by converting Plaintiffs’ assets
from commission-based accounts into fee-based ones
without first conducting a suitability analysis” and by
not providing financial advisors with a computer
system containing suitability analysis tools. Opp’n at
14; see also SAC ¶¶ 215-234. Defendants argue
Plaintiffs fail to add anything beyond their 10b-5(b)
claim and fail to allege adequate particularized
factual allegations suggesting Defendants “committed
a manipulative or deceptive act.” Mot. at 11. The
Court agrees.
As the Court previously stated, Rules 10b-5(a) and
(c) make it unlawful for a person to use a “device,
scheme, or artifice to defraud,” or engage in “any act,
practice, or course of business which operates or
would operate as a fraud or deceit,” in connection with
the purchase or sale of a security.
17 C.F.R.
§ 240.10b-5. While “the same set of facts may give rise
to both a violation of subsection (b) and subsection (a)
and/or (c), to state a claim under the latter
subsections, a plaintiff must allege a “device, scheme,
or artifice to defraud,” or an “act, practice, or course of
business which would operate as a fraud,” in addition
to the standard elements of a 10(b) violation, See

49a
Stoneridge Inv. Partners, LLC v. Sci.-Atlanta, 552
U.S. 148, 158 (2008); S.E.C. v. Loomis, 969 F. Supp.
2d 1226, 1237 (E.D. Cal. 2013)(quoting In re Alstom
SA, 406 F. Supp. 2d 433, 475 (S.D.N.Y. 2005)).
In its previous Order, the Court dismissed
Plaintiffs’ Rule 10b-5(a) and (c) claim because it was
“nothing more than a repackaging of the Rule 10b-5(b)
omission claims....” Order at 18. This remains the
case. Plaintiffs’ scheme liability claim largely rests on
Defendants’ alleged suitability omissions during the
conversion of commission-based accounts into feebased ones. See SAC ¶¶ 216-225.
Moreover, Plaintiffs’ scheme liability claim fails
again to allege violations actionable as a deceptive
scheme. Plaintiffs contend the transaction itself of
converting the accounts was deceptive because
Edward Jones supposedly did not conduct a suitability
analysis, prior to the conversion, through a computer
program. SAC ¶ 224, 226-227. But this allegation
fails because the deceptive conduct must have had
“the principal purpose and effect of creating a false
appearance of fact in furtherance of the scheme.”
Simpson v. Homestore.com, Inc., 519 F.3d 1041 (9th
Cir. 2008). As the court noted above, Defendants
conducted a suitability analysis; they simply did not
conduct one through the computer program Plaintiffs
endorse. Defendants failure to conduct a suitability
analysis through a non-existent computer program
did not have the “principal purpose and effect of
creating a false appearance.”
The Court further finds Plaintiffs have failed to
properly allege the standard elements of a 10(b)
violation: reliance, scienter, and loss causation. The
Court therefore DISMISSES Plaintiffs’ scheme

50a
liability claim under Rules 10b-5(a) and (c) (Count
VII) WITH PREJUDICE.
6. Section 20(a)
To establish a cause of action under Section 20(a),
“plaintiff must first prove a primary violation of
underlying federal securities laws, such as Section
10(b) or Rule 10b-5, and then show that the defendant
exercised actual power over the primary violator.” In
re NVIDIA Corp. Sec. Litig., 768 F.3d 1046, 1052 (9th
Cir. 2014). Plaintiffs failed to adequately allege a
primary violation under Section 10(b). Plaintiffs’
Section 20(a) control person claim (Count VIII)
therefore fails and is DISMISSED WITH
PREJUDICE.
7. Section 80b-1 et seq.
In their Second Amended Complaint, Plaintiffs
raised Investment Adviser Act claims for the first
time. SAC ¶¶ 256-294. Defendants argue these
claims fail as a matter of law. Mot. at 14. Rather than
respond to this argument in their Opposition to the
Motion, Plaintiffs withdrew these claims in a one
sentence footnote. Opp’n at 15 n. 13. The Court treats
a failure to respond to an argument as a concession.
The Court therefore DISMISSES these claims WITH
PREJUDICE.

51a
III. ORDER
For the reasons set forth above, the Court
GRANTS Defendants’ Motion to Dismiss in its
entirety. Plaintiffs’ Second Amended Complaint is
DISMISSED WITH PREJUDICE.
IT IS SO ORDERED.
Dated: November 8, 2019
/s/ John A. Mendez
JOHN A. MENDEZ,
UNITED STATES DISTRICT JUDGE

52a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
EDWARD ANDERSON;
COLEEN
WORTHINGTON;
JANET GORAL,
Plaintiffs-Appellants,
v.
EDWARD D. JONES &
CO., L.P.; THE JONES
FINANCIAL
COMPANIES, LLLP;
EDJ HOLDING
COMPANY, INC.;
JAMES D. WEDDLE;
VINCENT J. FERRARI,

No. 19-17520
D.C. No.
2:18-cv-00714-JAM-AC
Eastern District of
California,
Sacramento
ORDER

May 14, 2021

Defendants-Appellees.
Before: BOGGS,* M. SMITH, and BENNETT, Circuit
Judges.
The panel has unanimously voted to deny the
petition for panel rehearing. (Dkt. No. 50) Judges M.
Smith and Bennett vote to deny the petition for
rehearing en banc, and Judge Boggs so recommends.
(Id.) The full court has been advised of the petition
for rehearing en banc (Id.), and no judge of the court
has requested a vote on it. Fed. R. App. P. 35.
*

The Honorable Danny J. Boggs, United States Circuit Judge
for the U.S. Court of Appeals for the Sixth Circuit, sitting by
designation.

53a
Accordingly, the petition for panel rehearing and
rehearing en banc is DENIED.

